Semiannual Report to Congress
October 1, 2007 – March 31, 2008



                                            May 2008




    Federal Election Commission - Office of Inspector General
           999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2007 - March 31, 2008




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463



            OFFICE OF THE CHAIRMAN




                                                                                             May 22, 2008


                The Honorable Nancy Pelosi
                Speaker of the House of Representatives
                Washington, D.C. 20515

                Dear Madam Speaker:

                        Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                Commission submits the Inspector General’s Semiannual Report to Congress. The report
                summarizes the FEC’s Inspector General’s activity from October 1, 2007 through March 31,
                2008. During this reporting period, the FEC’s Inspector General completed the annual audit
                of the FEC’s financial statements and completed a performance audit of privacy and data
                protection. The Inspector General did not issue any reports that identified questioned costs or
                recommended that funds be put to better use.

                        The audit of the FEC’s financial statements resulted in an unqualified (clean) opin-
                ion on the required statements: the FEC’s Balance Sheet, Statement of Net Costs, Statement
                of Changes in Net Position, Statement of Budgetary Resources, and Statement of Custodial
                Activity. The audit also found no instances of non-compliance with applicable laws and
                regulations. However, the auditors observed one material weakness in the area of an inte-
                grated financial management system and one significant deficiency in information technology
                (IT) security. FEC management is committed to resolving the issues noted and has entered
                an agreement with an OMB-certified Line of Business provider for financial services. With
                regard to IT, management appreciates the comments and recommendations on IT security is-
                sues. The FEC has developed a corrective action plan to address the weaknesses identified in
                the audit.

                       An audit of the FEC’s privacy and data protection practices resulted in seven find-
                ings. In response to the audit and with input from the Inspector General, FEC management
                promptly developed a corrective action plan to implement the audit recommendations.

                       The Commission appreciates and shares the Inspector General’s commitment to
                sound financial and management practices, and we anticipate a continued cooperative
                working relationship as management takes appropriate measures to improve operations of




                                                                                                                  i
                                                             Office of Inspector General Semiannual Report to Congress




     the Commission. Copies of this semiannual report are being provided to the Chairman and Ranking
     Members of the FEC’s oversight committees.

                                                      Sincerely,



                                                      David M. Mason
                                                      Chairman
     Enclosure




ii
October 1, 2007 - March 31, 2008




                                        MANAGEMENT REPORT ON FINAL ACTION
                                         ON AUDITS WITH QUESTIONED COSTS
                                   FOR THE SIX-MONTH PERIOD ENDING MARCH 30, 2008

                                                                  Number of      Questioned   Unsupported
                                                                 Audit Reports     Costs         Costs

                 A. Audit reports for which no management
                    decision has been made by commencement            0              0            [0]
                    of the reporting period


                 B. Audit reports issued during the reporting
                                                                      0              0            [0]
                    period

                     Subtotals (A + B)                                0              0            [0]
                 C. Audit Reports for which a management
                    decision was made during the reporting            0              0            [0]
                    period

                     (i) dollar value of disallowed costs             0              0            [0]

                     (ii) dollar value of costs not disallowed        0              0            [0]


                 D. Audit Reports for which no management
                    decision has been made by the end of the          0              0            [0]
                    reporting period


                 E. Audit Reports for which no management
                    decision was made within six months of            0              0            [0]
                    issuance




                                                                                                            iii
                                                              Office of Inspector General Semiannual Report to Congress




                         MANAGEMENT REPORT ON FINAL ACTION
              ON AUDITS WITH RECOMMENDATION TO PUT FUNDS TO BETTER USE
                    FOR THE SIX-MONTH PERIOD ENDING MARCH 30, 2008


                                                                  Number of Audit    Funds to be Put to
                                                                     Reports            Better Use
     A. Audit reports for which no management decision has
        been made by the commencement of the reporting                  0                     0
        period

     B. Audit reports issued during the reporting period                0                     0


     C. Audit Reports for which a management decision was
                                                                        0                     0
        made during the reporting period

        (i) dollar value of recommendations that were agreed to
                                                                        0                     0
            by management


          - based on proposed management action                         0                     0


          - based on proposed legislative action                        0                     0


        (ii) dollar value of recommendations that were not
                                                                        0                     0
             agreed to by management

     D. Audit Reports for which no management decision has
                                                                        0                    0
        been made by the end of the reporting period

     E. Audit Reports for which no management decision was
                                                                        0                    0
        made within six months of issuance




iv
October 1, 2007 - March 31, 2008




                                   FEDERAL ELECTION COMMISSION
                                   WASHINGTON, D.C. 20463
                                   OFFICE OF THE INSPECTOR GENERAL




                                             A Message from the Inspector General

                      I would like to congratulate the staﬀ of the Oﬃce of Inspector General for a very
                      successful semiannual period. During this time, the OIG completed and released the
                      Audit of the Federal Election Commission’s Fiscal Year 2007 Financial Statements, the
                      2007 Performance Audit of Privacy and Data Protection, completed a peer review of
                      another OIG and had a peer review conducted on our audit function. I am pleased to
                      state that the Oﬃce of Inspector General received an unqualified (clean) opinion on
                      our audit function. We also responded to numerous requests from FEC management
                      for input into new agency policies and procedures.

                      During earlier semiannuals, I had expressed my concern over the lack of additional
                      resources for the OIG. The FEC budget for 2009 contained a request for two
                      additional staﬀ for the oﬃce, and as a consequence of agency salary lapse, we are
                      in the process of filling those two positions this fiscal year. These two additional
                      positions will add much needed assistance to the OIG and I am very pleased we can
                      fill them this fiscal year.

                      In conjunction with our audit of the FEC’s privacy and data protection function,
                      the OIG facilitated a presentation with the agency’s Commissioners and executive
                      management team and the contractor who conducted the audit. This was the initial
                      step to educate the senior leaders of the agency on the importance of having a
                      governance structure in place, setting the appropriate tone at the top, and the vital
                      role internal controls play in all aspects of agency management. We look forward to
                      continuing this discussion with the agency.




                      Lynne A. McFarland
                      Inspector General
                      Federal Election Commission

                      April 30, 2008




                                                                                                              v
                           Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
October 1, 2007 - March 31, 2008




                                                          Table of Contents



     Executive Summary	                                                              1
     The Federal Election Commission 	                                               3
     Office of Inspector General	                                                    4
     OIG Audit Activity	
                       Audit of the Federal Election Commission’s                    5
                       Fiscal Year 2007 Financial Statements	
                       2007 Performance Audit of Privacy and                         7
                       Data Protection	
     OIG Hotline Information	                                                        9
     OIG Investigations	                                                            10
     Additional OIG Activity	                                                       11
     ECIE and PCIE Activity	                                                        13
     Reporting Requirements 	                                                       14
     Table I – Inspector General Issued Reports With                                15
                 Questioned Costs	
     Table II – Inspector General Issued Reports With Recommendations              16
                 That Funds Be Put To Better Use	
     Table III – Summary Of Audit Reports With Corrective Actions                  17
                 Outstanding For More Than Six Months	
     OIG Strategic Plan - Fiscal Years 2005 – 2010	                                 18
     OIG Contacts	                                                                  19
     List of Training, Meetings and Conferences	                                   20
     Contacting the Office of Inspector General	                    (inside back cover)




                                                                                          vii
                             Office of Inspector General Semiannual Report to Congress




       This Page Intentionally Left Blank




viii
October 1, 2007 - March 31, 2008




                                                                Executive Summary



The Inspector General Act of 1978, as amend-                the financial position of the FEC as of September 30,
ed, states that the Inspector General is respon-            2007 and 2006, and its net cost, changes in net po-
sible for conducting audits, inspections, investiga-        sition, budgetary resources, and custodial activity for
tions, and recommending policies and procedures             the years then ended in conformity with accounting
that promote economic, efficient, and effective use         principles generally accepted in the United States of
of agency resources and programs that prevent               America.
fraud, waste, abuse and mismanagement. The IG
Act also requires the Inspector General to keep             In the Independent Auditor’s Report dated November
the Commission and Congress fully and currently             7, 2006, CG-LLP expressed a qualified opinion on
informed about problems and deficiencies in the             the FY 2006 statement of net cost because they
Commission’s operations and the need for corrective         were not able to obtain sufficient competent audit
action.                                                     evidence to support the FEC’s allocation of program
                                                            costs. Since the FEC has changed the presenta-
This semiannual report includes the major accom-            tion of program costs in its statement of net cost, the
plishments of the Office of Inspector General, as well      present opinion on the FY 2006 financial statements
as relevant information regarding additional OIG ac-        is different from that expressed in the previous report
tivities. The executive summary highlights the most         (for more information see the section entitled OIG
significant activities of the OIG. Additional details       Audit Activity located on page 5).
pertaining to each activity can be found in subse-
quent sections of this report.                              The OIG also completed and released the 2007
                                                            Performance Audit of Privacy and Data Protection –
The Audit of the FEC’s Fiscal Year 2007 Financial           OIG-07-02, December 2007. On December 8, 2005,
Statements – OIG-07-01 was completed and re-                the President signed the Transportation, Treasury,
leased November, 2007. Under a contract super-              Independent Agencies and General Government
vised by the OIG, the independent certified public          Appropriations Act, 2005. This annual appropria-
accounting firm Clifton Gunderson LLP (CG-LLP)              tions law contained a new section, Division H, Title V,
performed the audit of the FEC’s FY 2007 financial          § 522 relating to privacy controls of certain Federal
statements. The OIG was responsible for 1) review-          agencies.
ing the auditor’s approach and planning of the audit;
                                                            Section 522 requires certain agencies to assign a
2) evaluating the qualifications and independence of
                                                            Chief Privacy Officer (CPO) who is responsible for
the auditors; 3) monitoring the work of the auditors;
                                                            identifying and safeguarding personally identifiable
4) examining audit documents and reports to ensure
                                                            information (PII). Section 522 also requires an inde-
compliance with Government Auditing Standards,
                                                            pendent third-party review, contracted by the OIG, of
and OMB Bulletin No. 07-04, Audit Requirements for
                                                            agency use of PII and of its privacy and data pro-
Federal Financial Statements; and 5) other proce-
                                                            tection policies and procedures at least every two
dures the OIG deems necessary to oversee the con-
                                                            years. The OIG selected Cotton & Company as the
tract and audit.
                                                            independent contractor to conduct a performance
The CG-LLP report concluded that the FEC’s finan-           audit of privacy and data protection policies and pro-
cial statements present fairly, in all material respects,   cedures and, specifically, to determine if the FEC




                                                                                                                 1
                                                               Office of Inspector General Semiannual Report to Congress




is complying with section 522 of the Consolidated         in the transition and to decide what steps need to be
Appropriations Act, 2005.                                 taken by the community if a bill passes. The FEC IG
                                                          is an ECIE representative to the transition committee.
The audit resulted in seven findings – the final report   During the last several months, the committee met
was published on the OIG Web page on December             four times to discuss issues related to combining the
7, 2007 (for more information see the section entitled    two IG councils. Additional information pertaining to
OIG Audit Activity located on page 7).                    the IG’s involvement in the ECIE and PCIE activities
                                                          can be found in the section entitled ECIE and PCIE
The OIG conducts audits in accordance with gen-           Activity, page 13.
erally accepted government auditing standards
(GAGAS). Audit organizations conducting audits in         In response to a Federal Acquisition Regulation
accordance with GAGAS are required to have an in-         (FAR) requirement to increase fraud awareness at
dependent peer review every three years. This year        federal agencies, the OIG created a fraud hotline
the FEC OIG was required to have a peer review            poster. The purpose of the OIG fraud hotline poster
conducted on its audit operations. The Appalachian        is to provide an increased awareness to FEC em-
Regional Commission (ARC) Office of Inspector             ployees and contractors on fraud awareness and
General conducted a peer review on the FEC OIG.           how to report fraud, waste, abuse and mismanage-
An entrance conference was held and the majority          ment to the OIG (for more information see the sec-
of the fieldwork was conducted at the FEC. The final      tion entitled OIG Hotline Information, page 9).
report was provided to the OIG on March 28, 2008
                                                          As this reporting period comes to a close, the OIG
and contained an unqualified (clean) opinion (for
                                                          had 10 hotline complaints at various stages. In addi-
more information see the section entitled Additional
                                                          tion, management informed the OIG that action had
OIG Activity, page 11).
                                                          been taken against an employee based on informa-
The OIG received a letter from The Honorable              tion provided in a previous OIG investigation (for
Henry A. Waxman, U.S. House of Representatives,           more information pertaining to the hotline issues,
requesting a list of recommendations, made by the         see the section entitled OIG Hotline Information lo-
OIG from January 1, 2001 to present, that have not        cated on page 9; for more information on the inves-
been implemented by Congress or agency officials.         tigation see the section entitled OIG Investigations
The OIG provided Representative Waxman with a             located on page 10).
list of outstanding recommendations from 2006 to
present as the FEC has implemented all recommen-
dations made prior to 2006 (for more information
see the section entitled Additional OIG Activity, page
12).

Due to potential passage of legislation affecting the
Inspector General community, the PCIE and the
ECIE formed a committee composed of four IGs
from the PCIE and four IGs from the ECIE to assist



2
October 1, 2007 - March 31, 2008




                            the federal election commission



                                       In 1975, Congress created the Federal Election
                                       Commission (FEC) to administer and enforce the
                                       Federal Election Campaign Act (FECA). The duties
                                       of the FEC, an independent regulatory agency, are to
                                       disclose campaign finance information; enforce the
                                       provisions of the law; and oversee the public funding
                                       of Presidential elections.

                                       The Commission is made up of six members, who
                                       are appointed by the President and confirmed by
                                       the Senate. Each member serves a six-year term,
                                       and two seats are subject to appointment every two
                                       years. By law, no more than three Commissioners
                                       can be members of the same political party,
                                       and at least four votes are required for any offi-
                                       cial Commission action. The Chairmanship of the
                                       Commission rotates among the members each year,
                                       with no member serving as Chairman more than
                                       once during his or her term. Currently, the FEC has
                                       two Commissioners – David M. Mason, Chairman
                                       and Ellen L. Weintraub, Vice Chair.




                                                                                          3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General



           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General is re-
           sponsible for: 1) conducting and supervising audits
           and investigations relating to the Federal Election
           Commission’s programs and operations; 2) de-
           tecting and preventing fraud, waste, and abuse of
           agency programs and operations while providing
           leadership and coordination; 3) recommending poli-
           cies designed to promote economy, efficiency, and
           effectiveness of the establishment; and 4) keeping
           the Commission and Congress fully and currently
           informed about problems and deficiencies in FEC
           agency programs and operations, and the need for
           corrective action.




4
October 1, 2007 - March 31, 2008




                                                            OIG Audit Activity



Audit of the Federal Election Commission’s               OIG deems necessary to oversee the contract and
Fiscal Year 2007 Financial Statements                    audit.

Assignment Number: OIG – 07-01                           The audit included an examination, on a test ba-
                                                         sis, of evidence supporting the amounts and dis-
Status: Released November, 2007                          closures in the financial statements. The audit also
http://www.fec.gov/fecig/financial07.pdf                 included assessing the accounting principles used
                                                         and significant estimates made by management, as
Financial audits provide assurance as to whether         well as evaluating the overall principal statements’
the agency’s financial statements fairly present the     presentation.
financial position of the agency’s programs and
costs of operations. In addition, the financial state-   The CG-LLP report concluded that the FEC’s fi-
ment audit reports on the internal controls that sup-    nancial statements present fairly, in all material
port accurate financial reporting and compliance         respects, the financial position of the FEC as of
with applicable laws and regulation.                     September 30, 2007 and 2006, and its net cost,
                                                         changes in net position, budgetary resources, and
In accordance with the Accountability of Tax Dollars     custodial activity for the years then ended in confor-
Act of 2002, the FEC prepared financial statements       mity with accounting principles generally accepted
for the 2007 fiscal year in accordance with Office       in the United States of America.
of Management and Budget (OMB) Circular No.
A-136, Financial Reporting Requirements. The Chief       In the Independent Auditor’s Report dated
Financial Officers Act of 1990 (Public Law 101-576,      November 7, 2006, CG-LLP expressed a qualified
commonly referred to as the “CFO Act”), as amend-        opinion on the FY 2006 statement of net cost be-
ed, requires the FEC IG, or an independent external      cause they were not able to obtain sufficient compe-
auditor selected by the Inspector General, to audit      tent audit evidence to support the FEC’s allocation
the agency financial statements.                         of program costs. Since the FEC has changed the
                                                         presentation of program costs in its statement of net
Under a contract supervised by the OIG, the in-          cost, the present opinion on the FY 2006 financial
dependent certified public accounting firm Clifton       statements is different from that expressed in the
Gunderson LLP (CG-LLP) performed the audit of            previous report.
the FEC’s FY 2007 financial statements. The OIG
was responsible for 1) reviewing the auditor’s ap-       Report on Internal Control
proach and planning of the audit; 2) evaluating the
qualifications and independence of the auditors; 3)      CG-LLP’s planning and performance of the audit
monitoring the work of the auditors; 4) examining        included consideration of the FEC’s internal con-
audit documents and reports to ensure compliance         trol over financial reporting as a basis for designing
with Government Auditing Standards, and OMB              audit procedures for the purpose of expressing an
Bulletin No. 07-04, Audit Requirements for Federal       opinion on the financial statements and to comply
Financial Statements; and 5) other procedures the        with OMB Bulletin 07-04. The auditors did not test all
                                                         internal controls relevant to operating effectiveness,



                                                                                                              5
                                                                  Office of Inspector General Semiannual Report to Congress




such as those controls relevant to ensuring effi-            effect on the determination of financial statement
cient operations and consequently CG-LLP did not             amounts, and certain laws and regulations speci-
express an opinion on the agency’s internal control          fied in OMB Bulletin No. 07-04, such as the Anti-
over financial reporting.                                    Deficiency Act and the Prompt Payment Act.

The American Institute of Certified Public                   The results of CG-LLP’s tests of compliance with
Accountants (AICPA) established standards on com-            laws and regulations described in the audit report
municating deficiencies related to an entity’s inter-        disclosed no instances of noncompliance with the
nal control over financial reporting identified by the       laws and regulations that are required to be reported
auditors. As defined by the AICPA, a control defi-           under Government Auditing Standards and OMB
ciency exists when the design or operation of a con-         Bulletin No. 07-04.
trol does not allow the agency’s management or its
employees, in the normal course of performing their
assigned duties, to prevent or detect misstatements
on a timely basis.

Auditors determine whether an internal control defi-
ciency is a significant deficiency or a material weak-
ness based on the factors of likelihood and magni-
tude. A significant deficiency is a control deficiency,
or combination of control deficiencies, that adversely
affect the agency’s ability to initiate, authorize, re-
cord, process, or report financial data reliability in
accordance with generally accepted accounting
principles such that there is more than a remote like-
lihood that a misstatement of the agency’s financial
statements that is more than inconsequential will not
be prevented or detected by the agency’s internal
control. A material weakness is a significant defi-
ciency, or combination of significant deficiencies,
that results in more than a remote likelihood that a
material misstatement of the financial statements
will not be prevented or detected by the agency’s in-
ternal controls.

CG-LLP identified a material weakness in the area of:
 ●● Integrated Financial Management System
CG-LLP identified a significant deficiency in the area of:
 ●● Information Technology (IT)

Report on Compliance and Other Matters
FEC management is responsible for complying with
laws and regulations applicable to the agency. To
obtain reasonable assurance about whether FEC’s
financial statements are free of material misstate-
ments, CG-LLP performed tests of compliance with
certain provisions of laws and regulations, non-com-
pliance with which could have a direct and material



6
October 1, 2007 - March 31, 2008




2007 Performance Audit of Privacy and Data               complying with Section 522 of the Consolidated
Protection                                               Appropriations Act, 2005. An OIG meeting was held
                                                         with Cotton & Company representatives to discuss
Assignment Number: OIG – 07-02                           general FEC working arrangements and to provide
                                                         the background information such as the Privacy
Status: Released December, 2007                          Report submitted to the OIG in February 2007.
http://www.fec.gov/fecig/2007Privacy.pdf                 A formal entrance conference with key FEC per-
                                                         sonnel responsible for privacy activities within the
On December 8, 2005, the President signed the            Commission was held September 28, 2007.
Transportation, Treasury, Independent Agencies and
General Government Appropriations Act, 2005. This        The audit involved the use of an electronic survey to
annual appropriations law contained a new section,       determine the extent of privacy awareness among
Division H, Title V, §522 relating to privacy controls   FEC staff and the types of systems, both manual
of certain Federal agencies.                             and electronic, which might be subject to System
                                                         of Records Notification (SORN) publication in the
Section 522 requires certain agencies to assign          Federal Register and/or require physical or electron-
a Chief Privacy Officer (CPO) who is responsible         ic controls to protect data privacy. Further, an after
for identifying and safeguarding personally identifi-    hours walkthrough of FEC business areas was con-
able information (PII). Section 522 also requires an     ducted by the OIG and Cotton & Company to deter-
independent third-party review, contracted by the        mine whether physical records containing PII were
OIG, of agency use of PII and of its privacy and data    adequately secured.
protection policies and procedures at least every
two years. The OIG surveyed the PCIE and ECIE            A number of records containing PII were not ad-
community to determine how many agencies were            equately secured and the OIG contacted two FEC
required to conduct a 522 Privacy audit and whether      business areas to relay the results of the walk-
the audit had been completed. Based on the results,      through and recommended immediate corrective ac-
the OIG contacted the affirming offices to determine     tion to secure PII.
who performed the review and, where possible, ob-
                                                         Throughout the audit, the contractor provided week-
tained a copy of the statement of work or scope and
                                                         ly status reports which were reviewed by the OIG
the resulting report. The survey results were com-
                                                         and forwarded to FEC management. The reports
piled and provided to all ECIE and PCIE offices as
                                                         detailed audit activities, planned activities for the
feedback.
                                                         coming week, outstanding audit requests, and draft
                                                         findings. Further, Cotton & Company held a mid-
In order to plan for the audit, the OIG attended
                                                         audit status meeting with both the OIG and FEC
several meetings with FEC officials to gain an un-
                                                         management. The contractor provided written no-
derstanding of whether privacy controls were in
                                                         tification of findings and recommendations (NFRs)
existence and workng effectively at the FEC. The
                                                         and conducted a formal meeting to discuss the draft
meetings included discussions about whether draft
                                                         findings. Cotton & Company solicited comments,
policies and procedures would be progressed to
                                                         pertaining to the draft findings, from the OIG and
final before the auditors began audit fieldwork.
                                                         FEC management.
Following the meetings, the OIG formulated an audit
methodology and statement of work that enabled
the OIG to evaluate proposals to select an indepen-      Cotton & Company held an exit conference to dis-
dent public accounting firm to conduct the audit.        cuss the draft report which included FEC manage-
                                                         ment responses to the findings. The final report was
The OIG selected Cotton & Company as the inde-           published on the OIG Web page on December 7,
pendent contractor to conduct a performance audit        2007 in accordance with the original audit schedule.
of privacy and data protection policies and proce-       The audit resulted in seven findings, two of which
dures and, specifically, to determine if the FEC is      did not have management concurrence.



                                                                                                              7
                                                        Office of Inspector General Semiannual Report to Congress




As part of the OIG’s audit contract with Cotton &
Company, and to further expand on the findings and
recommendations contained in the report, Cotton
& Company conducted a post audit presentation
with FEC officials. The OIG coordinated a manage-
ment briefing which included the Commissioners,
Staff Director, General Counsel and Chief Financial
Officer. While the OIG initially planned for the con-
tractor to discuss the audit report, the presentation
was expanded to a high-level discussion of public
and private sector control frameworks.

On January 15, 2008, the OIG received a draft cor-
rective action plan (CAP) from management. The
OIG provided management with detailed written
comments on February 1, 2008. The OIG received a
revised CAP on March 21, 2008.




8
October 1, 2007 - March 31, 2008




                                   OIG hotline Information



                                       The Office of Inspector General established a hotline
                                       to enable employees and others to have direct and
                                       confidential contact with the OIG. The OIG receives
                                       complaints through various means such as U.S.
                                       mail, telephone, e-mail, and personal visits to the
                                       OIG. Once a hotline complaint has been received,
                                       a preliminary inquiry is conducted. When the inquiry
                                       has been completed, the hotline complaint can be
                                       closed with no further action taken, referred to man-
                                       agement for action, or closed and an investigation
                                       opened on the issue.

                                       In response to a Federal Acquisition Regulation
                                       (FAR) requirement to increase fraud awareness at
                                       federal agencies, the OIG created a fraud hotline
                                       poster. The purpose of the OIG fraud hotline poster
                                       is to provide an increased awareness to FEC em-
                                       ployees and contractors on fraud awareness and
                                       how to report fraud, waste, abuse and misman-
                                       agement to the OIG. Meetings were held with the
                                       FEC’s Contracting Officer and the lead Information
                                       Technology Division manager responsible for ITD
                                       contracts to discuss the placement of the poster
                                       throughout the FEC building, to include workspace
                                       occupied by FEC contractors. In addition to place-
                                       ment of the poster throughout the building, the elec-
                                       tronic version of the hotline poster will be posted on
                                       the OIG’s website and available for download.

                                       During the reporting period of October 1, 2007
                                       through March 31, 2008, the OIG had a total of 10
                                       hotline complaints at different stages – 8 are pending;
                                       2 are in progress.




                                                                                            9
          Office of Inspector General Semiannual Report to Congress




        OIG investigations



     The OIG previously reported on a closed investiga-
     tion involving allegations of misconduct by several
     former senior management officials. In the OIG’s
     semiannual report to Congress for the period ending
     September 2006, the OIG reported on the closure of
     the investigation that involved various allegations of
     misconduct, to include a violation of a criminal con-
     flict of interest. As previously reported, in September
     2006, the U.S. Attorney’s Office for the District of
     Columbia ultimately declined to prosecute the pri-
     mary subject of the investigation. Except for one em-
     ployee, all of the subjects of the investigation retired,
     separated, or were terminated from the agency.

     During the current semiannual period, management
     informed the OIG that action had been taken con-
     cerning the remaining employee. With the exception
     of a planned OIG follow-up to ensure administrative
     improvements occurred related to the FEC’s equal
     employment opportunity and internal control pro-
     grams, the OIG considers the matter closed.

     Currently the OIG has one investigation open.




10
October 1, 2007 - March 31, 2008




                                                 Additional OIG Activity



Besides conducting audits, inspections, and investi-        finalized and forwarded to the FHFB OIG and
gations, the OIG performs, and is involved in an ar-        the ECIE on January 9, 2008.
ray of additional projects and activities. As required
                                                         ●● This reporting period, the OIG was required to
by the Inspector General Act of 1978, as amend-
                                                            have a peer review conducted on its audit oper-
ed, all legislation compiled by the Commission’s
                                                            ations. The Appalachian Regional Commission
Congressional Affairs office is reviewed by the
                                                            (ARC) Office of Inspector General conducted
Inspector General. The Inspector General also
                                                            a peer review on the FEC OIG. An entrance
reviews and provides comments, when appropri-
                                                            conference was held and the majority of the
ate, on all legislation provided by the PCIE/ECIE
                                                            fieldwork was conducted at the FEC. The fi-
Legislative Committee. In addition, the Inspector
                                                            nal report was provided to the OIG on March
General routinely reads all Commission agenda
                                                            28, 2008 and contained an unqualified (clean)
items. The OIG engaged in an array of activities dur-
                                                            opinion.
ing the past six months – following are examples of
those additional activities:                             ●● In December 2007, the OIG initiated audit
                                                            follow-up verification activity for the Transit
  ●● Inspectors General conduct audits in accor-            Benefit Audit released February 2007. The OIG
     dance with generally accepted government au-           met with management on February 20, 2008
     diting standards (GAGAS). Audit organizations          to determine the status of open recommenda-
     conducting audits in accordance with GAGAS             tions. We were unable to get an updated status
     are required to have an independent peer re-           at that time but eventually received an updated
     view every three years. The OIG completed the          corrective action plan (CAP) from management
     peer review of the Federal Housing Finance             on March 14, 2008. The OIG attempted to verify
     Board (FHFB). The objective of the peer review         whether the actions had been fully implement-
     program is to ensure an audit organization’s           ed and therefore corrected the deficiencies de-
     internal quality control system adequately pro-        scribed in the findings. Because management
     vides reasonable assurance that applicable au-         did not provide the CAP by the requested date,
     diting standards, policies, and procedures are         the OIG was unable to complete verification ac-
     being followed. The OIG contacted the FHFB             tivities prior to cut-off for semiannual reporting
     to obtain their most recent semiannual reports         for the three recommendations management
     to assess the volume of audits selectable for          put forth as fully implemented. Further, initial
     peer review. An entrance meeting was held and          implementation verification activity performed
     fieldwork was initiated.                               does not support recommendation closure.

     The fieldwork was conducted using a remote          ●● The OIG worked with the FEC’s Webmaster to
     log-in to the FHFB Teammate audit files. On            implement requirements of Section 746 of the
     December 5, 2007, a final draft report was pre-        Consolidated Appripriations Act, 2008 (H.R.
     sented and the formal written response was             2764). Specifically, a direct link to the Inspector
     provided by the FHFB IG on December 28,                General’s web page was added to the FEC’s
     2007. The report and supporting exhibits were          Internet home page to allow individuals quick
                                                            and simple access to the OIG’s web page. In
                                                            addition, a new e-mail subscription service was


                                                                                                            11
                                                          Office of Inspector General Semiannual Report to Congress




     added to the OIG’s web page to allow individu-       General was interviewed and provided infor-
     als to be automatically informed about the re-       mation on the duties of the Inspector General
     lease of new OIG reports. Since launching the        and how the OIG operates. The IG was also
     new e-mail subscription service in early 2008,       featured on the Intranet as one of the Women
     nearly 100 individuals have subscribed to the        of the FEC.
     new OIG service.
                                                       ●● As a result of a significant increase in work-
 ●● The Office of Management and Budget (OMB),            load over the last several years, the OIG was
    issued memoranda in 2006 and 2007, which              granted additional hiring authority in late 2007.
    recommend agencies establish a core manage-           The OIG determined a new staff auditor and
    ment group and policy to respond to the loss          IG Counsel position are necessary to respond
    of certain categories of sensitive and personal       to the increased workload. The OIG devoted a
    information. The team is composed of the Staff        significant amount of time during the first quar-
    Director, Chief Information Officer, Inspector        ter on the hiring process. Because the two ad-
    General, General Council, Associate General           ditional positions are newly created positions,
    Council for Law & Advice, and the Information         the OIG created position descriptions for the
    Systems Security Officer. This team is con-           staff auditor and IG Counsel positions. In addi-
    vened to conduct an initial evaluation of any         tion, the OIG worked on a recruitment strategy
    potential breach. There was one potential issue       during the quarter, to include employment ad-
    reviewed this reporting period.                       vertisements in newspapers and online em-
                                                          ployment Websites. The OIG also met with the
 ●● The OIG received a letter from the                    FEC HR office several times to discuss recruit-
    Honorable Henry A. Waxman, U.S. House of              ment of the two new OIG positions. Lastly, the
    Representatives, requesting a list of recommen-       OIG started a review in March 2008 of the re-
    dations, made by the OIG from January 1, 2001         sumes received in response to the employment
    to present, that have not been implemented by         advertisements.
    Congress or agency officials. The OIG provided
    Representative Waxman with a list of outstand-     ●● The OIG worked on finalizing its record re-
    ing recommendations from 2006 to present as           tention and disposition schedule to be sub-
    the FEC has implemented all recommendations           mitted to the National Archives and Records
    the OIG made prior to 2006. A brief summary           Administration (NARA) for approval. The pur-
    of each audit was provided along with an ac-          pose of the record retention and disposition
    companying chart that contained the outstand-         schedule is to list the types of records main-
    ing recommendations and a short summary of            tained by the OIG and the time period after
    each recommendation.                                  which destruction or permanent retention is
                                                          authorized. The record retention schedule will
 ●● The Federal Election Commission is transi-            also provide for the transfer of inactive records
    tioning to a Line of Business (LOB) and the           from the OIG to an off-site records center.
    Inspector General met with the Chief Financial        The OIG met with the FEC’s records contrac-
    Officer and the Accounting Officer to discuss         tor to discuss the OIG’s draft record retention
    the status of the transition.                         and disposition schedule. The FEC contractor
 ●● The Inspector General, along with the Staff           agreed to provide the draft schedule to NARA
    Director, General Counsel, and Chief Financial        for review and approval. Furthermore, to reduce
    Officer, hold weekly meetings to discuss various      the level of paper records stored in the OIG file
    Commission issues and interactions between            room, the OIG initiated a scanning project. To
    their respective areas.                               date, all of the 2004 Financial Statement Audit
                                                          records have been converted to electronic
 ●● The FEC recently launched an Intranet to pro-
                                                          format.
    vide FEC employees with a forum for shar-
    ing and accessing information. The Inspector



12
October 1, 2007 - March 31, 2008




                                                          ECIE and PCIE Activity



The President’s Council on Integrity and Efficiency        The IG chaired two ECIE meetings and attended two
(PCIE) and the Executive Council on Integrity and          PCIE meetings at the request of the ECIE Vice Chair
Efficiency (ECIE) were established May 11, 1992 by         who was unable to attend.
Executive Order 12805, and are chaired by the Office
of Management and Budget, Deputy Director for              The IG provided comments to the ECIE on a Senate
Management. In addition to the Inspectors General,         Committee report concerning the legislation af-
the councils include representatives from the Office       fecting the IGs, specifically on the subject of ECIE
of Personnel Management, the Office of Government          compensation. The IG also provided comments on
Ethics, the Office of Special Counsel, and the             the Annual Report to the President prepared by the
Federal Bureau of Investigations.                          Inspector General community.

The PCIE/ECIE have identical functions and respon-
sibilities to coordinate and enhance governmental
efforts to promote integrity and efficiency, and to de-
tect and prevent fraud, waste and abuse in Federal
programs. The PCIE is comprised of IGs appointed
by the President of the United States and confirmed
by the Senate. The ECIE consists of IGs appointed
by the heads of their respective agencies.

The Inspector General is an active member of the
Executive Council on Integrity and Efficiency and has
provided input on a number of initiatives proposed by
the Council. The IG also participates in joint meet-
ings and activities with the President’s Council on
Integrity and Efficiency.

Due to potential passage of legislation affecting the
Inspector General community, the PCIE and the
ECIE formed a committee composed of four IGs
from the PCIE and four IGs from the ECIE to assist
in the transition and to decide what steps need to be
taken by the community if a bill passes. The FEC IG
is an ECIE representative to the transition commit-
tee. During the last several months, the committee
met four times to discuss issues related to combining
the two IG councils. Some of the other issues dis-
cussed concern the election of the chair, committee
structure and a charter.




                                                                                                             13
                                                              Office of Inspector General Semiannual Report to Congress




                                               Reporting Requirements



Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector General
Act Amendments of 1988 are listed below:


	 IG Act	              Description	                                                                      Page


 Section 4(a)(2)       Review of Legislation                                                                  11

 Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                     None

 Section 5(a)(2)       Recommendations with Respect to Significant Problems, Abuses,                      None
                       and Deficiencies

 Section 5(a)(3)       Recommendations Included in Previous Reports on Which Corrective                       17
                       Action Has Not Been Completed (Table III)

 Section 5(a)(4)       Matters Referred to Prosecuting Authorities                                        None

 Section 5(a)(5)       Summary of Instances Where Information was Refused                                 None

 Section 5(a)(7)       Summary of Significant Reports                                                           5

 Section 5(a)(8)       Questioned and Unsupported Costs (Table I)                                             15

 Section 5(a)(9)       Recommendations that Funds be put to Better Use (Table II)                             16

 Section 5(a)(10)      Summary of Audit Reports issued before the start of the Reporting Period             N/A
                       for which no Management Decision has been made

 Section 5(a)(11)      Significant revised Management Decisions                                             N/A

 Section 5(a)(12)      Management Decisions with which the Inspector General is                           None
                       in Disagreement




14
October 1, 2007 - March 31, 2008




                                                                               TABLE I

INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)




                                                        Number   Questioned   Unsupported
                                                                   Costs         Costs

 A. For which no management decision has been made by     0          0            [0]
    commencement of the reporting period


 B. Which were issued during the reporting period         0          0            [0]


     Sub-Totals (A&B)                                     0          0            [0]


 C. For which a management decision was made during       0          0            [0]
    the reporting period


     (i) Dollar value of disallowed costs                 0          0            [0]


     (ii) Dollar value of costs not disallowed            0          0            [0]


 D. For which no management decision has been made by     0          0            [0]
    the end of the reporting period

 E. Reports for which no management decision was made     0          0            [0]
    within six months of issuance




                                                                                            15
                                                                   Office of Inspector General Semiannual Report to Congress




                                                                                                     TABLE II

INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE



                                                                             Number                 Dollar Value
                                                                                                  (In Thousands)
 A. For which no management decision has been made by the                         0                          0
    commencement of the reporting period

 B. Which were issued during the reporting period                                 0                          0

 C. For which a management decision was made during the report-                   0                          0
    ing period
     (i) dollar value of recommendations were agreed to by                        0                          0
         management

        based on proposed management action                                       0                          0

        based on proposed legislative action                                      0                          0

     (ii) dollar value of recommendations that were not agreed to by              0                          0
          management
 D. For which no management decision has been made by the end                     0                          0
    of the reporting period
 E. Reports for which no management decision was made within                      0                          0
    six months of issuance




16
October 1, 2007 - March 31, 2008




                                                                                      TABLE III



SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR MORE
THAN SIX MONTHS
                                   Financial Statement Audits

                                                                     Recommendations
        Fiscal Year                   Report               Repeat*       New        Closed       Total
                                      Number

       Fiscal Year 2004               OIG-04-01                0          42           12          30

       Fiscal Year 2005               OIG-05-01               30          11           15          26

       Fiscal Year 2006               OIG-06-02               26          13           10          29

*Repeat column represents recommendations from the prior fiscal year report that are still applicable to
the current fiscal year report.



                                                                     Recommendations
           Report Title                  Report              Issue     Number       Closed        Open
                                         Number              Date
    Audit of the FEC’s Employee          OIG-06-01          02/07          25           3          22
    Transit Program




                                                                                                        17
                                                                                                                        Office of Inspector General Semiannual Report to Congress




     OIG Strategic Plan - Fiscal Years 2005 – 2010
                                                               FEC / OIG Strategic Plan - Fiscal Years 2005 - 2010
     OIG Products: To provide products                             OIG Process: To develop and implement
                                                                                                                                    OIG Staff: To maintain a skilled and motivated
     and services that promote positive                            processes, policies, and procedures to ensure
                                                                                                                                    work force in an environment that fosters
     change in FEC policies, programs, and                         the most effective and appropriate use of OIG
                                                                                                                                    accountability, communications, teamwork, and
     operations.                                                   resources in support of our people and
                                                                                                                                    personal and professional growth.
                                                                   products.

     Objective A: Deliver timely, high-quality                                                                                      Objective A: Attract and retain well-qualified,
     products and services that promote                                                                                             diverse and motivated employees.
     positive change.                                                Objective A: Maintain a dynamic strategic
                                                                     planning process.                                              Strategy:
                                                                                                                                    - develop and implement a comprehensive recruiting program
     Strategy:                                                                                                                      that attracts a broad population with the knowledge, skills,
     - establish common OIG standards for communicating              Strategy:
                                                                                                                                    abilities, and expertise necessary to make meaningful
     results;                                                        - periodically review and update the strategic plan to
                                                                                                                                    contributions to the OIG;
     - conduct quality assurance programs;                           address changing OIG and FEC priorities; and,
                                                                                                                                    - assess employee satisfaction and develop strategies to
     - solicit appropriate internal and external review and          - identify factors that influence organizational change
                                                                                                                                    address employee concerns;
     comment;                                                        and develop short and long term plans to address them.
                                                                                                                                    - identify reasons for staff departures and develop plans to
     - comply with applicable statutory guidelines and                                                                              foster greater staff retention; and,
     standards;                                                                                                                     - adhere to EEO principles and strive to maintain a diverse work
     - set realistic and appropriate milestones.                                                                                    force.

     Objective B: Address priority issues
     and concerns of the Commission,
                                                                     Objective B: Plan and conduct cost-
     Management, and Congress.
                                                                     effective work that address critical issues                    Objective B: Provide training and
     Strategy:     Perform work that supports;                       and results in positive change.                                developmental opportunities to employees.
     - Federal Election Commission and Congressional
     priorities;                                                     Strategy:                                                      Strategy:
     - Strategic Management Initiative efforts;                      - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                     activities;                                                    office needs as well;
     Focus OIG attention in the following areas of                   - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
     emphasis:                                                       goals and priorities;                                          training are adhered to; and,
     - managing change;                                              - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
     - resource allocation in relation to policy objectives;         communicated; and,                                             requirements are met.
     - delivery of client service;                                   - identify specific targets for OIG review that are the most
     - causes of fraud and inefficiency; and,                        cost-effective
     - automation and communication.



                                                                     Objective C: Identify customer needs and
                                                                     provide products and services to meet
     Objective C: Follow-up and evaluate                             them.                                                          Objective C: Assess, recognize, and reward,
     results of OIG products and services to                                                                                        when possible, performance that contributes to
     assess their effectiveness in promoting                         Strategy:                                                      achieving the OIG mission.
     positive change.                                                - establish new customer feed back mechanisms;
                                                                     - consider and evaluate customers feedback when                Strategy:
                                                                     planning and developing products and services;
     Strategy:                                                       - respond to Congressional inquires and request for
                                                                                                                                    - develop and articulate expectations for each employee's
     - Identify, as appropriate, lessons learned to improve                                                                         performance, including contributions in meeting the mission &
                                                                     briefing and testimony;
     timeliness and quality; and,                                                                                                   goals of the OIG; and,
                                                                     - promote open exchange of ideas and information
     - conduct follow-up reviews to determine if intended                                                                           - ensure that rewards, when possible, are given in recognition of
                                                                     through outreach and through use of e-mail; and,
     results have been achieved.                                                                                                    exceptional employee performance.
                                                                     - receive, evaluate, and respond, as appropriate, to
                                                                     information received through the OIG hotline and other
                                                                     sources.


     Objective D: Satisfy customers,
     consistent with the independent nature                          Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
     of the OIG.                                                     and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                     procedures.                                                    effective communication.
     Strategy:
     - establish professional communication and                      Strategy:                                                      Strategy:
     interaction with customers to promote the open                  - ensure that IG follow-up procedures are followed and
                                                                                                                                    - ensure that communication between employees is open;
     exchange of ideas;                                              that management is aware of their role in the process;
                                                                                                                                    - provide employees with the tools and incentives they need to
     - incorporate customer feedback, as appropriate; and,           - establish common OIG standards for terminology, date
                                                                                                                                    adequately perform their duties.
     - be open to customer-generated solutions and                   maintenance and communications.
     options.

                                                                     Objective E: Establish a positive and
                                                                     productive working environment.

                                                                     Strategy:
                                                                     - reengineer or streamline OIG procedures to achieve the
                                                                     most effective use of resources; and,
                                                                     - ensure that necessary technologies, evolving and
                                                                     otherwise, are made available to staff as needed.



     Performance Measures: Determine the
     timeliness and quality of products and                          Performance Measures: An annual audit                          Performance Measures: All employees meet
     services; their effectiveness in                                plan is issued; strategic plan is periodically                 the training requirements; all employees have
     promoting positive change; and, reach                           reviewed; and, necessary technology is                         performance standards; and all employees
     agreement with management on at least                           provided to staff to enable them to most                       meet the basic requirements for the position in
     90% of recommendations within six                               efficiently perform their duties.                              which they were hired to perform.
     months of the report issue date.


                __________________________________________________________________________________
                Semiannual Report to Congress                                                  Page 26                                      October 1, 2007 – March 31, 2008

18
October 1, 2007 - March 31, 2008




                                                                           OIG Contacts



The table below is a breakdown of the total amount of contacts received by the Office of Inspector General for
the past six months – October 1, 2007 through March 31, 2008. These contacts were made through various
sources such as telephone calls, personal visits to the OIG, e-mails, faxes, and U.S. Mail:




                                                      OIG         No Action       Forwarded
                       Month        Contacts
                                                     Action       Necessary       for Action

                      October           81               2            77                2
                    November            72               3            68                1
                    December            90               2            84                4
                      January          109               2           104                3
                     February          196               4           178               14
                        March          237               3           229                5

                      TOTAL            785             16            740               29




                                                                                                             19
                                                               Office of Inspector General Semiannual Report to Congress




                                          List of Training, Meetings
                                                    and Conferences



The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period October 1, 2007 – March 31, 2008.


                  Host/Sponsor                                               Topic/Subject

                                               ECIE       Monthly Meetings
                                               PCIE       Financial Statement Audit Network Meetings
Assistant Inspector General for Investigations (AIGI)     Quarterly Meeting
                   Project on Government Oversight        Met with POGO Committee to discuss IG study
                                                          Met with Senate staff members to discuss IG
                                         U.S. Senate      Legislation
                                                          Met with a Congressional staff member to discuss
                                          U.S. House      ECIE Pay Issues
                                        PCIE / GAO        Financial Statement Audit Conference
                   Executive Women in Government          2008 Summit / Conference
            Association of Government Accountants         Meet the Financial Policy Makers Seminar
           Council of Counsels to Inspectors General      Freedom of Information Act (FOIA) Seminar

                                                          Preventing Violence in the Workplace Seminar
                       Federal Election Commission        Disability and Reasonable Accommodations Seminar
                                                          Misconduct in the Federal Workplace: Keys to
                                                          Effective Disciplinary Investigations Presentation

                                            GAO           Strategic Planning Presentation
  Department of Defense / Department of Homeland          Financial Management Transformation and Risk
                                         Security         Management Control Session
                                                          Forum on Emerging Issues in Government Financial
            Association of Government Accountants         Management
                                                          Using Internal Controls to Improve Performance
            Association of Government Accountants         Training
                              Management Concepts         Contracting Officer Representatives Training
                                American University       Key Executive Leadership - Session One
                              Small Agency Council        Federal Budget Process Training
                            U.S. Postal Service / OIG     TeamMate Training


20
                                          CONTACTING THE
                              OFFICE OF INSPECTOR GENERAL


The success of the OIG mission to prevent fraud, waste, and abuse depends on the cooperation of FEC em-
ployees (and the public). There are several ways to report questionable activity.




                       Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or anony-
                       mous message can be left 24 hours a day/7 days a week.



                       Write or visit us - we are located at: Federal Election Commission

                       Office of Inspector General
                       999 E Street, N.W., Suite 940
                       Washington, D.C. 20463
                       Mail is opened by OIG staff members only.




                       You can also fax us at 202-501-8134 or contact us by e-mail at: oig@fec.gov.




                       Website address: http://www.fec.gov/fecig/fecig.shtml




Individuals may be subject to disciplinary or criminal action for knowingly making a false complaint or providing
false information.
